No. 21-

Jn fflfje

Supreme Court of tf)e ©ntteb States
GREGORY SHAWN MERCER,
Petitioner,
vs.
COMMONWEALTH OF VIRGINIA,
COUNTY OF FAIRFAX, et al.
Respondents.

On Petition For Writ Of Certiorari To
The Supreme Court of Virginia

CERTIFICATE OF COMPLIANCE FOR
PETITION FOR WRIT OF CERTIORARI

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

RECEIVED
JUN 1 'i 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1
CERTIFICATE OF COMPLIANCE
I hereby certify that on this 10th day of
June, 2021, I have filed one copy of a Petition for
Writ of Certiorari to the Supreme Court of Virginia
in this SCOTUS. This is Paid Petition following
SCOTUS Rule 33.1 to the best of my ability. Filed
with this Petition for Writ of Certiorari is a
SCOTUS Rule 38(a) Personal Check made out to
the “Clerk of the Supreme Court” for $300.
The Supreme Court of Virginia denied my
February 26, 2020 SCV Petition for Appeal on
January 11, 2021. By Order of this Court dated
March 19, 2020 and due to health concerns related
to COVID-19, the Review on Certiorari: Time for
Petitioning (SCOTUS Rule 13.1) deadline was
extended from 90 to 150 days making my filing
deadline June 10, 2021 to file this Petition for Writ
of Certiorari. Additionally, and by Order of this
Court dated April 15, 2020, Court filing for
SCOTUS Rule 33.1 can be by a single copy on 8
x 11” paper. As the Court may later request
submission in Booklet Format, I am assuming the
single copy is unbound and consistent with printer
difficulties during COVID-19. My Petition for Writ
of Certiorari INTRODUCTION is 28 pages long.
My PETITION for Writ of Certiorari is 45 pages
long. My Petition for Writ of Certiorari Appendix is
636 pages long. Together that makes 709 pages
long.
IF THE CLERK COULD PLEASE VERIFY
THAT THE SCOTUS HAS RECEIVE ALL MY
INTROCUCTION (28) PAGES, PETITION (45)

1

2

PAGES, AND APPENDIX (636) PAGES OR A
TOTAL
OF
(709)
PAGES
WITHOUT
INTERFERENCE FROM THE VIRGINIA POLICE
THEN CALL ME ASAP, I WOULD BE VERY
GRATEFUL. MY PHONE NUMBER IS 202-4319401.
In accordance with SCOTUS Rule 33.1 (d &
g), my Petition for Writ of Certiorari currently has
9,000 Words in the: 1) Opinions and Orders Below;
2) Jurisdiction; 3) Congressional Provisions, Acts of
Congress, Proclamation, Sessions Laws, Statutes,
Ordinances, Rules, Campaign Signs, Recent News,
& Book; 4) Concise Statement of the Case; 6) Direct
and Concise Argument for Granting Writ; 6)
Conclusion; and 7) 28 U.S.C. §1746 Declaration /
Signed Sections. The List of Counsel at the end of
the document was omitted from the Word Count in
accordance with SCOTUS Rule 33.1(d).

28 U.S.C. §1746 DECLARATION / SIGNED
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.
/)A /

%-------------

GREGORY SHAWN MERCER, pro se

2

